                              CLOSEOUT FOR M92110045


      On November 24, 1992, Dr. a-n                        NSF program officer for the
           -
                                    Division of the Directorate for              informed
OIG of an allegation that an unnamed faculty member at an NSF Center was abusing the
mentor-student relationship. The program officer said she had been contacted bv a graduate


student alleged that her faculty mentor sexually harassed women students, and that she had
been retaliated against for reporting this harassment to university administrators. The student
eventually lefl the institution and pursued a Ph.D. degree in a different sub-specialty at a new
institution. The program officer informed OIG that she thought the allegation might have
substance and might be part of a broader harassment allegation, encompassing the nonsexual
harassment of male "  graduate students. Although" the student did not orovide the name of her
                                                                         I


mentor, the program officer said that the subject of this case was probably
m           a professor in the Department and a member of the NSF-supported
I                                    enter (the Center), both which are located at the institution.
The program officer said that although this department was powerful in both academic and
professional communities, there was a bad professional atmosphere in it, it had a reputation
for being tough on graduate students, and that there were "blood feuds" among several of the
department faculty members.

        When OIG contacted the complainant she refused to provide any information to
support her allegation, even as a confidential source. Without this information, OIG would
normally close a case such as this; however, because the allegation involved a member of an
NSF-supported Center, and because the program officer provided a tentative identification,
OIG interviewed current and former graduate students of a number of the department's
faculty. OIG learned that some students thought that certain faculty behaved in what could be
described as an unprofessional manner, but concluded that none of the incidents reported to
us could be considered a serious deviation from accepted practices and thus did not rise to the
level of misconduct in science.

       We made several more attempts to communicate with the student to get a clearer
statement of her complaint, but she refused to cooperate. Therefore, OIG closed this inquiry
and co_ncludedit would take no further action in this case.

cc:     Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                       Page 1 of 1
